                                      Testimony of 


                      THE HONORABLE TODD J. ZINSER 

                           INSPECTOR GENERAL 


                         U.S. DEPARTMENT OF COMMERCE

                                         before the

 Senate Committee on Homeland Security and Governmental Affairs 


     Subcommittee on Federal Financial Management, Government 

        Information, Federal Services, and International Security 



                               Wednesday, July 18, 2012


                     Census: Planning Ahead for 2020


Mr. Chairman, Ranking Member Brown, and Members of the Subcommittee:

Thank you for inviting us to testify today on lessons learned from the 2010 decennial and
methods the Census Bureau could employ to design a cost effective and accurate enumeration
in 2020.

The constitutionally mandated decennial census is perhaps the most schedule-driven project
mounted by the federal government. Each decade the Census Bureau must enumerate the
population in years ending in zero and deliver the results by December 31 to support
apportionment of Congressional representation, a cornerstone of our democracy. My
testimony today is informed by the oversight we have provided last decade to both the planning
of the 2010 decennial and its execution.

As we look ahead, there can be no question that the 2020 decennial must incorporate bold
approaches in order to achieve cost containment while maintaining or improving accuracy in
enumerating an ever-growing and increasingly hard-to-count population. Since the 2010
decennial completed operations, we have issued reports that offer the Census Bureau and
Congress recommendations with those goals in mind (see appendix for details). The next
decennial calls for new design elements and meticulous planning and testing—along with
unprecedented transparency on the part of the Bureau, including early and continuous
engagement with key stakeholders.



                                              1

While it seems that the 2010 decennial has just completed, we are rapidly approaching a critical
decision point for the 2020 decennial, a point that must be engaged in a significantly more
constrained budget environment. The critical juncture is that the Census Bureau must analyze
the 2020 decennial design alternatives and make a design decision by the end of fiscal year (FY)
2014. We must pay attention now because, as Congress is discussing agency budget authorities
for FY 2013, all federal agencies are developing their FY 2014 budget submissions. The Bureau’s
budget seeks to leverage its current survey operations with the research and testing of new
decennial design options and drive critical decisions the Bureau makes in setting the cost
trajectory for the next census.

The Census Bureau has vowed to contain costs of the 2020 decennial to an amount at a similar
level to 2010. That is an important and admirable goal. However, last decade the Census
Bureau made a similar vow: “Contain costs by conducting . . . a reengineered census for an
amount that is less than the cost of repeating the methodology used in Census 2000.” The life
cycle cost of the 2000 decennial was $8.2 billion in constant 2010 dollars. The Bureau estimated
in June 2003 that the cost of repeating the 2000 methodology in 2010 would be $12.2 billion.
The final cost of the 2010 decennial was $12.8 billion. We simply cannot afford to repeat the
cost growth experienced over prior decennials. Census must employ a new methodology.

Our testimony today will address three points: first, we will review some important challenges
the 2010 decennial encountered. Next, we will detail some of the changes the Census Bureau
and its stakeholders expect to improve the 2020 decennial. Finally, we will highlight key issues
for the Bureau, the Department, and Congress to consider as the Bureau works to bring about
these changes.

Congress must pay early and sustained attention to the Census Bureau’s development of design
alternatives, adaptation of strategy, and development of budgets to support the 2020 decennial.
This attention includes monitoring program developments, developing any necessary legislation
to enable a reengineered census, and support for early and mid-decade research and testing
requirements. Without this attention and oversight, there will be significantly greater risk to the
Bureau’s ability to contain costs.

  I.   Long-Standing Challenges the 2010 Census Faced

The Census Bureau successfully completed decennial field operations in 2010. In May 2011,
Census issued its assessment of decennial accuracy, which showed laudable results. The Bureau
could even point to participation rate success that corresponded to cost savings: it had
projected earlier in the decade that each 1 percent increase in the mail response rate would
reduce the Bureau’s costs by an estimated $85 million. It is generally accepted that the United
States has been experiencing declining mail response due to decreasing public participation in
surveys over the past 3 decades. The 2010 decennial nonetheless achieved a higher than
expected participation rate of 75.8 percent (versus the planned 69 percent). The Department
attributes the higher response to conducting the paid advertising campaign and public relations
efforts as well as implementing a short-form-only questionnaire.

Despite these successes, the 2010 decennial carried with it a high cost and a level of risk that
should not be repeated. Oversight bodies—including Congress, GAO, and OIG—held hearings


                                                2

and issued reports that examined the costs and risks that the 2010 decennial incurred during its
decade of planning and execution. At the request of Congress, we issued quarterly reports,
including a final report in June 2011 that identified management challenges and included
recommendations for the 2020 decennial. Some of the challenges OIG found most significant in
our quarterly reports to Congress concerned:
      Cost estimation;
      Data collection;
      Administrative records;
      An Internet response option; and
      Risk management.

   Cost estimation. Throughout the decade, the Census Bureau remained uncertain of what
   the 2010 decennial’s total cost would ultimately be. With a life cycle cost estimate of more
   than $11 billion in 2003, the projection topped $14 billion in 2008 and ultimately totaled in
   excess of $12 billion as decennial operations concluded in 2010. The final cost was nearly
   twice the cost of the 2000 Census (nominal dollars)—due in part to a late-stage design
   change and higher-than-expected contractor costs. In recent history, the cost of the
   decennial census has roughly doubled during each cycle. In a December 2010 report, GAO
   estimated that using the 2010 decennial design in 2020 could end up costing up to $30
   billion (see figure 1).

                   Figure 1. Projected 2020 Decennial Life Cycle Costs
                               in Nominal Dollars (Billions)

                          $30

                          $25

                          $20

                          $15
                                                 2010 costs
                          $10

                           $5

                           $0
                                 Proposed 2020 design   Proposed 2020 design     GAO 2020 estimate
                                      option low            option high        using 2010 methodology


                          Source: U.S. Census Bureau business plan; GAO reporting

   Data collection. In preparation for the 2010 decennial, the Census Bureau tried to contain
   costs by automating the largest, most costly decennial operations through the use of
   handheld computers (HHCs). Unfortunately, it lacked the knowledge and experience to
   effectively manage the large, complex IT acquisition, greatly limiting the value of automated
   field data collection efforts. For one of the lengthiest, most cost-intensive operations




                                                              3

    (nonresponse followup), the Bureau abandoned use of the HHCs and resorted to pencil-
    and-paper field data collection.

    Administrative records. The Census Bureau used administrative records—information
    collected for the administration of programs and provision of services by federal, state, and
    local governments and commercial entities—to a very limited extent (e.g., United States
    Postal Service data) during the 2010 decennial. More extensive administrative records use
    could have reduced the cost of the nonresponse operations (which, at $2 billion, were the
    most costly of the 2010 decennial) and helped the Bureau avoid inaccurate enumerations.

    An Internet response option. The Census Bureau offered an Internet response option in
    the 2000 decennial but did not publicize its availability. While it received only 65,000 unique
    electronic submissions, the Internet was deemed a viable response option. The Bureau did
    not, however, implement this option for the 2010 decennial; consequently, it relied
    primarily on paper-intensive operations, which were cumbersome, error-prone, and
    expensive.

    Risk management. OIG quarterly reports on the 2010 decennial identified significant
    problems in project planning (e.g., not employing critical path management or thoroughly
    reviewing project start and end dates up front) and risk management (e.g., starting such
    activities late in the decennial life cycle and not completing contingency plans on time) that
    the Bureau needs to resolve to contain costs and maintain information quality for future
    decennials.

In May 2012, the Bureau issued its assessment of the quality of the 2010 counts. Currently, it is
implementing an ambitious program to evaluate the design, methods, processes, and operations
to build upon its past successes, while overcoming its shortcomings, as it plans the 2020
decennial.

 II.	   The 2020 Census: A More Complete, Cost-Effective Enumeration Requires
        Fundamental Changes and Bold Approaches

First, the Census Bureau must make fundamental changes to the design, cost estimation, and risk
management of the decennial census to obtain a quality count for a more reasonable cost.
Decisions made during this decade’s early years will be critical for setting the course for how
well the 2020 count is performed and how much it will ultimately cost. Table 1 shows a high-
level timetable of the 2020 decennial life cycle and the required deliverables. Failure to meet the
deliverables imperils the schedule, which could drive up the costs of this decennial census as in
2010.




                                                 4

              Table 1. 2020 Census Life Cycle and Corresponding Major Deliverables

          FYs 2012–2014                                           FYs 2015–2018                     FYs 2019–2023

                    Research                                    Operational Development          Readiness Testing, Execution,
                   and Testing                                    and Systems Testing                   and Closeout

     Conduct research and testing                                  Develop and baseline
                                                                                                     Test systems readiness
           and field tests                                       operational requirements

     Develop and baseline systems                              Conduct systems development
                                                                                                     Update frame address
        engineering processes                                           and testing

     Determine strategy for major                                  Conduct operational
                                                                                                 Conduct enumeration activities
            acquisitions                                            and systems tests

       Determine and refine initial
                                                                Establish field infrastructure        Execute Census Day
          operational designs

                                                                                                 Deliver apportionment counts
                                                               Final operational refinements
                                                                                                     and redistricting data

Source: U.S. Census Bureau information

       Design. As part of its effort to redesign the 2020 decennial, the Census Bureau has
       generated rough order of magnitude cost estimates for four preliminary design options,
       referred to by the Bureau as Design Alternatives 1, 2, 3, and 4, spanning the decennial life
       cycle of FYs 2012–2023.1 Each of the four known design alternatives varies to the extent of
       address listing, mode of enumeration, and infrastructure setup. Table 2 (next page) provides
       a high-level summary of the differences among the different decennial design alternatives.




                                                            
1
  There are two other design alternatives for which the Bureau has yet to generate cost estimates. Design
Alternatives 5 and 6 rely heavily, or nearly exclusively, on the use of administrative records and include no address
field operations. Testing involving these two options remains ongoing and the extent of their potential use is
unknown.


                                                                              5

          Table 2. Comparison of Four Decennial Census Design Alternatives

                           Design                Design            Design              Design
                        Alternative 1         Alternative 2     Alternative 3       Alternative 4
 Address field
                                Full                               Targeted
 operations
                                                Multimode       Visit households,          Use
                             Traditional
                                                  contact            then use        administrative
 Enumeration                 (mail) and
                                               (e.g., phone,     administrative      records, then
                              Internet
                                              Internet, mail)        records        visit households
                                   Decentralized                              Hybrid
 Infrastructure              (many local census offices and        (fewer local census offices and
                               modest IT improvements)                  shared IT platforms)
Source: U.S. Census Bureau

    Design Alternative 1, the most expensive option, would cost a projected $17.8 billion and
    makes few changes to the 2010 decennial design. Design Alternative 4, the least expensive
    option at a projected cost of $12.6 billion, relies most heavily on new approaches (e.g.,
    targeted field operations and administrative record use). The costs of the remaining two
    options fall between these figures. The Census Bureau bases these costs on assumptions
    that the American Community Survey (ACS) program will continue. With Congress
    debating the elimination of funding for this survey, which replaced the long-form
    questionnaire for the 2010 decennial, the Bureau must prepare to factor the significant
    uncertainty this would create into ACS planning and 2020 decennial designs.

    Cost estimation. The Census Bureau plans to update estimates annually to improve future
    budget requests. Per its decennial business plan, the Bureau will have a preliminary
    operational design by FY 2015 based on initial research and testing. From then on, the
    budget for 2020 decennial should provide more accurate estimates for the finalized design
    and associated costs. This is important because 71–80 percent of decennial costs, depending
    on the design, are incurred in the 3 years leading up to enumeration (FYs 2018–2020). If the
    Bureau is successful with its testing for a new design, the best-case scenario would be a
    2020 decennial that ends up costing roughly the same as the 2010.

    Risk management. In previous work, we recommended that risk management activities
    begin from the outset of the current decennial census life cycle, rather than just before field
    operations (which defined risk management for the 2010 effort). Similarly, a National
    Research Council report on redesigning the 2020 decennial encouraged planning for the
    next decennial to start early in the life cycle to ensure a more cost-effective design. For the
    next decennial, the Census Bureau should implement appropriate risk management from
    the outset and finalize contingency plans prior to the start of decennial operations.

Next, the upcoming decennial must incorporate bold approaches in order to achieve cost
containment while maintaining or improving accuracy in enumerating an ever-growing and
increasingly hard-to-count population. The Census Bureau has mapped these new directions
with five major 2020 design research tracks (see figure 2, next page). Specifically, the Bureau is


                                                     6

considering strategies for reducing cost and increasing quality: automating data collection,
reorganizing the field infrastructure, reengineering the IT infrastructure (including an Internet
option), enhancing map quality through continual address updating, and using administrative
records.

           Figure 2. Five Major Research Tracks for the 2020 Census Design


                                                      Reengineered 
                                                           Field 
                                                      Infrastructure


                              Expanded,                                     Reengineered 
                             Automated,                                      Information 
                             and Tailored                                    Technology 
                              Response                                      Infrastructure



                                                        2020 
                                                       Census 
                                                       Design



                                        Using 
                                                                       Continual 
                                    Administrative 
                                                                        Address 
                                     Records for 
                                                                         Frame 
                                        Non‐
                                                                       Updating
                                      response



                         Source: U.S. Census Bureau

These design tracks are new to the 2020 decennial planning process. However, the impending
departure of the Bureau’s director puts these initiatives at risk, as they require strong
leadership.

   Data collection. Tailoring response options and automating data collection in the field
   could replace millions of paper forms and maps, and it remains a viable goal. To that end,
   the Census Bureau is launching a project to establish an adaptive design approach to
   conducting data collection faster and cheaper than the current prevailing survey philosophy,
   which strives for the highest response rate until time or money runs out. The “Adaptive
   Design” project creates a centralized, data-driven system that enables the Bureau to realize
   efficiencies in data collection, make knowledgeable tradeoffs between costs and errors, and
   to make better decisions on when to stop data collection efforts. However, in order to
   automate data collection in 2020, Census must improve its IT acquisition process early in
   the decade.

   Field infrastructure. In June 2011, the Census Bureau announced a significant regional
   office restructuring. Marking the first such change since 1961, the Bureau expects to
   complete restructuring by January 1, 2013. The number of offices that manage nationwide
   surveys using thousands of permanent field representatives will decrease from 12 to 6 (see
   figure 3, next page).



                                                           7

                                     Figure 3. Census Regions, Effective January 1, 2013




                Source: U.S. Census Bureau

       According to the Census Bureau, this reorganization aims to lower costs, improve
       efficiency, and increase responsiveness. The Bureau used objective criteria to select office
       closures and expects to save $15–18 million annually, starting in FY 2014, with few staff
       reductions. With the new 2020 decennial design still under development, it is unknown how
       these changes in the field will impact the Bureau’s goal of containing the cost of the
       decennial census while preserving data quality.

       IT infrastructure. The Census Bureau must improve its IT acquisition process early in the
       decade. To effectively implement a cost-effective and high-quality, redesigned data-collection
       operation for 2020, the Bureau must leverage emerging technologies. It is currently
       exploring the idea of a program similar to the U.S. Department of Defense’s Venture
       Catalyst Initiative (DeVenCI).2 Such an operation could increase the Bureau’s awareness of
       emerging commercial technologies developed by nontraditional suppliers, as well as provide
       insight on census redesign needs and requirements to potential new suppliers.

       The Internet is another tool that should reduce decennial IT costs. Statistical agencies in
       other countries, including Australia, Canada, New Zealand, and the United Kingdom, have
       employed the Internet to collect census data. An Internet response option would not be
       new to the United States either. The Bureau intends to provide an Internet response option
                                                            
2
  According to the Department of Defense, DeVenCI fosters interaction among venture capitalists, small
innovative companies, and potential Defense customers to identify and adopt emerging commercial technologies to
meet Defense needs; see Department of Defense, DeVenCI (Defense Venure Catalyst Initiative), http://devenci.dtic.mil.


                                                               8

   in 2020 and as part of the ACS. Given the pervasiveness of the Internet and the public’s
   ever-increasing reliance on it, we find it difficult to envision a 2020 Census without an
   Internet response option, albeit one that addresses IT security concerns.

   Continual address updating. The Census Bureau describes “an accurate, comprehensive,
   and timely [address] list” as “one of the best predictors of a successful census.” If the list is
   incomplete or inaccurate, people may be missed or counted more than once. Errors in the
   Bureau’s master address file also increase the costs of nonresponse followup and other
   census operations. To reduce costs for the 2020 decennial—as we reported in May, the
   bureau spent nearly $1.4 billion in the decade preceding 2010 to produce the decennial
   census address list—the Bureau intends a continuous program of more robust updates of
   its maps and addresses database. A continuously updated, accurate database would improve
   the address lists and maps throughout the decade and support a less costly targeted address
   canvassing operation. To achieve this for 2020, the Bureau has introduced a $407 million
   initiative, called the Geographic Support System (GSS), to reduce costs. The Bureau also
   looks to gain enhanced address-list sharing capabilities with tribal, state, county, and local
   governments; this would bolster their Local Update of Census Addresses (LUCA) Program
   and the improvements it can make to the Bureau’s address list.

   Using administrative records. Greater use of administrative records offers the potential to
   enhance the decennial census in a number of important areas: from improving the master
   address file to finding households or individuals who may otherwise be missed to providing
   quality control for the enumeration process. These personal records contain information
   that individuals have already provided to the government, such as their names, addresses,
   age, sex, race, and a wide variety of demographic, socioeconomic, and housing information.

   As indicated in the Census Bureau’s 2020 business plan, supplementing decennial operations
   with information from these records could potentially reduce enumeration costs and help
   the Bureau avoid inaccurate enumerations in the following ways:
       	 Improving the address list;
       	 Supplying answers to questions with invalid or blank responses;
       	 Providing information for households that do not respond to the questionnaire, an
          in-person visit, or a phone interview;
       	 Offering quality control; and
       	 Helping assess overall decennial accuracy (i.e., coverage measurement).
   However, relevant statutes governing other federal agencies do not facilitate the use of
   administrative records by the Census Bureau because these statutes either do not compel
   agencies to provide their records to the Bureau in response to requests or state that
   agencies are only required to provide certain information to the Bureau.

Finally, as we stated in our final 2010 decennial quarterly report to Congress, Census must
implement a more effective decennial test program using the American Community Survey (ACS)
as a test environment.



                                                 9

   Background. ACS data are used in countless ways; its strength is in supplying a timely,
   consistent set of data, nationwide, across various levels of geography. The ACS provides:

          Annual statistics for all areas with populations greater than 65,000;
          3-year estimates for all areas with populations greater than 20,000; and
          5-year estimates for all areas.

   Replacing the census long-form questionnaire with the ACS was a key goal of the 2010
   decennial redesign. After eliminating the long-form questionnaire for 2010, the Census
   Bureau anticipated an improved 2010 response rate by featuring a short-form-only
   questionnaire. The ACS simplified the once-a-decade population and housing enumeration
   and provides the detailed demographic, housing, social, and economic characteristics
   throughout the decade in support of government programs, the business community, and
   the general public.

   The ACS and testing for the 2020 decennial. Leading up to the 2010 decennial, the
   Census Bureau conducted three large site tests in 2004, 2006, and 2008. Although the
   Bureau scheduled its site tests at 2-year intervals, each one transpired over 3 years of
   planning, implementation, and evaluation—resulting in overlap with prior or subsequent
   tests. This overlap made it difficult for the Bureau to build on experiences and incorporate
   feedback from previous tests into the operational design it examined in the next test. For
   the 2020 decennial, the Bureau intends to implement smaller, focused research and testing.

   The ACS infrastructure allows for the creation and testing of enterprise-wide solutions to
   obstacles that face all survey and decennial operations. In our final 2010 report, we
   suggested that the Census Bureau use the ACS to explore areas such as questionnaire
   content and design, response options (such as the Internet), use of administrative records,
   and targeted field data collection procedures and methodologies. According to the Bureau,
   Internet-response option tests have already produced useful results and will soon be
   implemented in the ACS. An ACS Internet response option that meets federal security
   standards would help the Bureau develop an IT infrastructure for its 2020 decennial
   program earlier in the decade. The cost and expense of building a secure Internet response
   option, for one-time decennial use, was cited by the Bureau as one reason for not using the
   Internet in 2010.

   The ACS and a more efficient Census workforce. We have also suggested using the
   existing trained workforce, based primarily in the Census regions, for enhancing the 2020
   decennial. This permanent workforce conducts other Census surveys such as the ACS on
   an ongoing basis. Using these workers to continuously update the maps and address list
   throughout the decade could reduce the size and improve the accuracy of the end-of-
   decade map and address updating operations.

By meeting these challenges, the Census Bureau and its stakeholders can maintain or improve
on the quality of the 2020 decennial while containing cost.




                                                10

III.   Key Issues for the 2020 Decennial

The Census Bureau, the Department of Commerce, and Congress should take immediate
action to lay the groundwork for a cost-effective 2020 decennial. We have identified the
following key issues for consideration:

   Departmental oversight of automated data collection. Departmental oversight should
   play a role: early in the process, it can reveal whether the Census Bureau has considered all
   reasonable project alternatives or if it is assuming too much risk. In this way, the
   Department can work with the Bureau to address problems before unnecessary costs
   accumulate. Supported by early independent cost estimates and independent assessments,
   its oversight can play a critical role in ensuring decennial IT investments stay on track.

   Planning within a constrained Census budget. As research and testing continues, the
   Census Bureau must contend with and plan for several challenges that could adversely
   impact the next decennial. Like the rest of the federal government, it is operating in a
   constrained budget environment. In FY 2012, as a result of a reduction in its budget request
   for FY 2012, the Bureau canceled 20 of 109 studies that aimed to measure its performance
   in the 2010 decennial. The Bureau must be strategic in how it spends it available funding.
   And it must provide the Secretary and Congress reliable and transparent budget requests.

   Continuity of leadership. Leadership continuity is essential to maintain momentum as
   planning progresses for the 2020 decennial. Absent stable, committed leadership, any
   organization tends to revert to its embedded culture. Because of the long planning cycle for
   the decennial, it is particularly critical that stable leadership chart the direction for the
   Census Bureau according to a consistent vision. A leadership void adds risk to the Bureau’s
   management of critical issues (e.g., budget, operational design, and questionnaire content).
   Reverting to historical practices is a particular risk for the Bureau in the absence of strong
   leadership. It will be important to make the appointment of a new Director a priority.

   Internet use and data-sharing. The Census Bureau is in the process of testing several
   design strategies for the 2020 decennial. In order to prepare for 2020, the Bureau must
   make a preliminary design decision by the end of FY 2014. Decisions made during the next
   2 years will largely determine the cost and quality of the next decennial; thus, the Bureau
   must use the lessons learned from 2010 to guide its future decisions, and Congress may
   need to consider plans and legislation related to an Internet option and data-sharing to help
   achieve a cost-effective 2020 decennial census. For improving the address list through data
   sharing, the Bureau will need to look to Congress to address Title 13 restrictions on the
   Bureau reciprocating address information with the very partners who assist the Bureau.
   Specifically, while the Census Address List Improvement Act of 1994 helped by authorizing
   the LUCA program, further legislative action would help establish even better methods of
   two-way address sharing.

   Administrative records use. The Census Bureau possesses appropriate authority to
   request and use administrative records from all government sources under 13 U.S.C. § 6,
   and the Privacy Act permits other agencies to disclose their records to the bureau.
   However, legislation governing other federal agencies either does not compel those


                                               11

agencies to provide their records to the Bureau in response to requests or states that
agencies are only required to provide certain information to the Bureau, limiting its
usefulness. Congressional guidance on the disclosure and permitted uses of administrative
records for the decennial census would be necessary to facilitate administrative records use
by the Bureau.

The ACS and the 2020 decennial. Two recent developments may potentially impact both
the ACS and the Census Bureau’s decisions on decennial design, planning, and
implementation.

First, Congress has initiated debate as to whether the ACS, which currently requires a
response from each sampled household, should become voluntary. As part of its
deliberations, Congress will consider the implications of making this a voluntary survey.
Census Bureau research conducted in 2002 and 2003 indicated that a voluntary ACS would
result in:
   	 Mail response rates falling by over 20 percentage points;
   	 Annual costs increases, by at least 38 percent, to achieve a comparable level of
      reliability; and
   	 Reduced data quality for areas of low response and small population groups (e.g.,
      blacks, Hispanics, Asians, and American Indians).
The Census Bureau’s concern about a lower response rate appears to be consistent with
the recent results of the Canadian census. That country’s 2011 census, which occurs every
5 years, shifted its long-form data collection from mandatory to voluntary—and
experienced a 25 percent decline in its long-form questionnaire response rate.

Congress is also considering whether or not to completely eliminate funding for the ACS.
As part of its deliberations, Congress will consider the implications that defunding the
survey will have on the 2020 decennial, including:
   	 The replacement of a continuous nationwide testing process with discrete large-
      scale site tests, upon which the Census Bureau can determine a more cost-effective
      decennial design;
   	 The loss of a trained and experienced workforce, distributed across the nation to
      support decennial operations;
   	 The ability to establish an IT infrastructure to support an Internet response option
      that meets federal security standards; and
   	 The potential need to reinstate the long-form decennial questionnaire, currently not
      a factor in any design alternative.
Considering the Census Bureau’s goal of maintaining the quality and containing the costs of
the 2020 decennial, defunding the ACS would create significant uncertainty for decennial
planning.




                                           12

Appendix
          2020 Decennial Recommendations to the Census Bureau Director
                         from 2011 and 2012 OIG Reports

 Recommendation                                  2020 Decennial Life Cycle Phase
       Census 2010: Final Report to Congress (OIG-11-030-I; June 27, 2011)
 1.   Conduct an analysis of the causes of the significant cost
      savings for 2010 field operations and incorporate those
                                                                    Research and Testing
      findings into any future validation studies to generate a
      more accurate final cost estimate.
 2.   Obtain and use independent cost estimates to validate
      internally derived cost estimates (that include               Research and Testing
      contingency reserves).
 3.   Develop a transparent decision documentation strategy
      to account for 2020 census program and spending               Research and Testing
      decisions.
 4.   Improve the transparency of the decennial budget              Research and Testing;
      process, especially the presentation of surplus (or           Operational Development and Systems
      elimination of the surplus) as shown in the monthly           Testing;
      financial management reports.                                 Readiness Testing, Execution, and Closeout
 5.   Reevaluate the practice of frontloading and develop a         Operational Development and Systems
      better process for developing workload and cost               Testing;
      assumptions.                                                  Readiness Testing, Execution, and Closeout
 6.   Explore alternative approaches for conducting the 2020
      Census that include (1) Internet and web-based response
      options, (2) automated field data collection alternatives,    Research and Testing;
      (3) utilizing administrative records, and (4) incorporating   Operational Development and Systems
      into the decennial process experienced field                  Testing
      representatives who conduct nondecennial Census
      surveys each year.
 7.   Improve communication with the public on concurrent
                                                                    Research and Testing;
      enumeration surveys and better inform people who did
                                                                    Operational Development and Systems
      not receive decennial census forms at their homes how
                                                                    Testing
      they might participate.
 8.   Increase the sample size of the American Community
      Survey (or other surveys) to use as a test environment
                                                                    Research and Testing
      for conducting smaller tests of new processes,
      procedures, and systems.
                                                                    Research and Testing;
 9.   Thoroughly review and improve decennial census
                                                                    Operational Development and Systems
      training methods.
                                                                    Testing
                                                                    Research and Testing;
 10. Explicitly address enumerator safety in collaboration
                                                                    Operational Development and Systems
     with the Department, law enforcement agencies, and
                                                                    Testing;
     Congress.
                                                                    Readiness Testing, Execution, and Closeout




                                                        13

    Recommendation                                                    2020 Decennial Life Cycle Phase
    11. Regarding requirements management:
       a. Institutionalize effective requirements management
            processes that balance Census stakeholder needs and
            make appropriate cost, schedule, and performance
                                                                    Research and Testing;
            tradeoffs; 
                                                                    Operational Development and Systems
       b. Ensure that major stakeholders fully participate
                                                                    Testing
            throughout the entire acquisition process; and
       c. Maintain accurate cost estimates on cost
            reimbursement contracts to align them with
            identified requirements and subsequent changes.
    12. Align system development schedules with operational
        deadlines to allow adequate time to test systems before     Research and Testing
        their deployment.
    13. Continuously update the maps and address lists
                                                                    Research and Testing;
        throughout the decade, supplementing these activities
                                                                    Operational Development and Systems
        with targeted address canvassing at the end of the
                                                                    Testing
        decade.
    14. Review both address canvassing practices and post-data      Research and Testing;
        collection processing to minimize errors on the maps        Operational Development and Systems
        that support subsequent operations.                         Testing
    15. Develop acquisition lifecycle oversight procedures to
        manage project risk that correspond to government and       Research and Testing
        industry best practices.
                                                                    Research and Testing;
    16. Strengthen and implement a risk management strategy
                                                                    Operational Development and Systems
        and relevant contingency plans before starting 2020
                                                                    Testing;
        decennial census operations.
                                                                    Readiness Testing, Execution, and Closeout
                                                                    Research and Testing;
    17. Develop a 2020 decennial lifecycle schedule early in the
                                                                    Operational Development and Systems
        decade, finalizing the operational schedules as soon as
                                                                    Testing;
        practicable after research and testing are completed.
                                                                    Readiness Testing, Execution, and Closeout
    18. Regarding the partnership program and special
         enumeration operations:
        a. Improve advance coordination with partnership
            organizations,
        b. Ensure Partnership specialist skills are aligned with
                                                                    Readiness Testing, Execution, and Closeout
            project requirements,
        c. Establish procedures to mitigate the risk of duplicate
            enumerations, and
        d. Institute a more effective process for selecting and
            confirming sites to enumerate.
    19.
        a. Specify how to align Partnership activities and
            objectives with local Census office schedules to
            remedy current systemic shortcomings.
        b. Ensure joint Partnership- local Census office manager
                                                                    Readiness Testing, Execution, and Closeout
            training as part of the decennial process.
        c. Refine the recruitment and hiring process and
            training of Partnership assistants.
        d. Provide Partnership assistants adequate electronic
            resources to do their job.
                                     




                                                         14

 Recommendation                                   2020 Decennial Life Cycle Phase
       2020 Census Planning: Delays with 2010 Census Research Studies May
      Adversely Impact the 2020 Decennial Census (OIG-12-023-I; April 5, 2012)
  1. Prioritize further the 2010 Census Program Evaluation
       and Experiments (CPEX) studies, and focus program
       resources, to ensure that the most critical studies         Research and Testing
       affecting the cost and quality of the 2020 Census are
       completed.
  2.   Improve the transparency of the 2010 CPEX program by
       posting study plans, expected publication dates for the
       109 studies, and final reports online as soon as            Research and Testing
       practicable so that stakeholders can review and monitor
       the Bureau’s progress in redesigning the 2020 Census.
              High-Quality Maps and Accurate Addresses Are Needed to Achieve
                 Census 2020 Cost-Saving Goals (OIG-12-024-I; May 10, 2012)
  1.   Develop a master address file/topologically integrated
       geographic encoding and referencing system database
       (MTdb) measure for determining address list quality at a
       low level of geography that (a) provides a fair and equal   Research and Testing
       opportunity for targeting selection, (b) drives selection
       and planning decisions, and (c) is well-documented and
       verifiable.
  2.   Work with the Department to determine the feasibility       Research and Testing;
       of improving methods of sharing MTdb information            Operational Development and Systems
       throughout the decade with governmental entities            Testing;
       (partners) to create a uniform, national address list.      Readiness Testing, Execution, and Closeout
  3.   Investigate and remedy the exclusion of 500,000
       ungeocoded address records, which had been designated
                                                                   Research and Testing
       as valid U.S. Postal Service delivery addresses, from the
       2010 census.
  4.   Conduct the necessary research, develop a proven            Research and Testing;
       methodology, and allocate the necessary funds to            Operational Development and Systems
       continuously reduce the number of ungeocoded records        Testing;
       throughout the decade.                                      Readiness Testing, Execution, and Closeout
  5.   Develop and implement quality indicator tools, including
       use of administrative records, to ensure that updates to    Research and Testing
       the MAF are accurate.




OIG-12-030-T



                                                       15
